UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-2806
Stephen Henderson
Plaintiff - Appellant
v.
United States of America
Defendant - Appellee
Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:19-cv-01788-CAS)
JUDGMENT
Before GRUENDER, BENTON, and GRASZ, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed. The motion to
proceed on appeal in forma pauperis is denied as moot.
March 17, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.'
/s/ Michael E. Gans

Appellate Case: 19-2806

Page: 1

Date Filed: 03/17/2020 Entry ID: 4892006

Case: 4:19-cv-01788-CAS Doc. #: 2 Filed: 06/28/19 Page: 1 of 2 PagelD #: 25
Appendix A
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
STEPHEN HENDERSON,

)
)
)
)

Movant,
v.

)

UNITED STATES OF AMERICA,
Respondent.

No. 4:19-CV-1788 CAS

)
)
)
)

MEMORANDUM AND ORDER
This matter is before the Court on pro se movant Stephen Henderson’s motion under 28
U.S.C. § 2255 to vacate, set aside, or correct sentence. The motion is a “second or successive
motion” within the meaning of 28 U.S.C. §§ 2244 and 2255 but has not been certified by the United
States Court of Appeals for the Eighth Circuit as required by the AEDPA. As a result, the motion
will be denied.
On July 2, 2009, movant was convicted by a jury of one count of conspiracy to distribute
and possess with the intent to distribute in excess of five kilograms of cocaine and one count of
distribution of in excess of five kilograms of cocaine. See United States v. Henderson. No. 4:08CV-187-CAS (E.D. Mo. Jul. 2, 2009) (Doc. 207). As a result of the conviction, the Court
sentenced movant to life imprisonment.

(Doc. 228).

Movant appealed his conviction and

sentence, and the United States Court of Appeals for the Eighth Circuit affirmed.
Movant filed his first motion to vacate pursuant to 28 U.S.C. § 2255 on April 24, 2012.
This Court held an evidentiary hearing on the motion, and subsequently denied the motion. On
November 2, 2016, the Eighth Circuit denied movant’s application for a certificate of
appealability.

Case: 4:19-cv-01788-CAS Doc. #: 3 Filed: 06/28/19 Page: 1 of 1 PagelD #: 27

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
STEPHEN HENDERSON,

)
)
)
)

Movant,

)

v.
UNITED STATES OF AMERICA,
Respondent.

No. 4:19-CV-1788 CAS

)
)
)
)

ORDER OF DISMISSAL
In accordance with the memorandum and order issued on this date and incorporated herein,
IT IS HEREBY ORDERED that movant’s motion to vacate, set aside, or correct illegal
sentence pursuant to 28 U.S.C. § 2255 is DENIED and DISMISSED as SUCCESSIVE.

CHARLES A. SHAW
UNITED STATES DISTRICT JUDGE
Dated this 28th day of June, 2019.

Case: 4:19-cv-01788-CAS Doc. #: 2 Filed: 06/28/19 Page: 2 of 2 PagelD #: 26

In the instant motion, movant claims that the United States Supreme Court’s decision in
Carpenter v. United States. 138 S. Ct. 2206 (2018), invalidates his conviction. In Carpenter, the
Supreme Court held that the government must obtain a search warrant supported by probable cause
before acquiring a defendant’s cell-site location records. Movant states that his cell-site location
records were “critical for the government to be able to investigate and prosecute [him],” and
because the government acquired these records without a search warrant, they were illegally
obtained in light of the Carpenter decision. For this reason, movant asks to Court to grant his
motion to vacate.
Under 28 U.S.C. § 2255(h):
A second or successive motion must be certified as provided in section 2244 by a panel of
the appropriate court of appeals to contain—
(2) a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously
unavailable.
Absent certification from the United States Court of Appeals, this Court lacks authority
under § 2255 to grant movant’s requested relief. As a result, the motion shall be denied.
Accordingly,
IT IS HEREBY ORDERED that movant’s motion under 28 U.S.C. § 2255 to vacate, set
aside, or correct sentence is DENIED and DISMISSED as SUCCESSIVE. [Doc. 1]
An Order of Dismissal will accompany this Memorandum and Order.

CHARLES A. SHAW
UNITED STATES DISTRICT JUDGE
Dated this 28th day of June. 2019.
-2-

Appendix B

Henderson v. United States
United States District Court for the Eastern District of Missouri, Eastern Division
June 28, 2019, Decided; June 28, 2019, Filed
No. 4:19-CV-1788 CAS
Reporter
2019 U.S. Dist. LEXIS 108532 *
Judges: CHARLES A. SHAW, UNITED STATES
DISTRICT JUDGE.
STEPHEN HENDERSON. Movant, v. UNITED
STATES OF AMERICA, Respondent.
Opinion by: CHARLES A. SHAW

Subsequent History: Motion denied by Henderson
v. United States, 2019 U.S. Dist. LEXIS 156645
(E.D. Mo., Sept. 13, 2019)

Opinion

MEMORANDUM AND ORDER
Prior History: United States v. Henderson, 613
F.3d 1177, 2010 U.S. App. LEXIS 15759 (8th Cir.
Mo., July 30, 2010)

Core Terms
movant, sentence, Appeals, vacate, records, search
warrant, certificate, distribute, cell-site, kilograms,
cocaine

Counsel: f* 11 Stephen Henderson. Plaintiff. Pro
se, COLEMAN, FL.
For USA, Defendant: Tiffany G. Becker, LEAD
ATTORNEY, OFFICE OF U.S. ATTORNEY, St.
Louis, MO.

This matter is before the Court on pro se movant
Stephen Henderson's motion under 28 U.S.C. §
2255 to vacate, set aside, or correct sentence. The
motion is a "second or successive motion" within
the meaning of 28 U.S.C. §§ 2244 and 2255 but has
not been certified by the United States Court of
Appeals for the Eighth Circuit as required by the
AEDPA. As a result, the motion will be denied.
On July 2, 2009, movant was convicted by a jury of
one count of conspiracy to distribute and possess
with the intent to distribute in excess of five
kilograms of cocaine and one count of distribution
of in excess of five kilograms of cocaine. See
United States v. Henderson. No. 4:08-CV-l 87-CAS
(E.D. Mo. Jul. 2, 2009) (Doc. 207). As a result of
the conviction, the Court sentenced movant to life
imprisonment. (Doc. 228). Movant appealed his
conviction and sentence, and the United States
Court of Appeals for the Eighth Circuit affirmed.
Movant filed his first motion to vacate pursuant to
28 U.S.C. § 2255 on April 24, 2012. This Court

Page 2 of 2
2019 U.S. Dist. LEXIS 108532, *1

held [*2] an evidentiary hearing on the motion, and CHARLES A. SHAW
subsequently denied the motion. On November 2,
2016, the Eighth Circuit denied movant's UNITED STATES DISTRICT JUDGE
application for a certificate of appealability.
Dated this 28th day of June, 2019.
In the instant motion, movant claims that the
United States Supreme Court's decision in
Carpenter v. United States. 138 S. Ct. 2206, 201 L.
Ed. 2d 507 (2018), invalidates his conviction. In
Carpenter, the Supreme Court held that the
government must obtain a search warrant supported
by probable cause before acquiring a defendant's
cell-site location records. Movant states that his
cell-site location records were "critical for the
government to be able to investigate and prosecute
[him]," and because the government acquired these
records without a search warrant, they were
illegally obtained in light of the Carpenter decision.
For this reason, movant asks to Court to grant his
motion to vacate.
Under 28 U.S.C. § 2255(h):
A second or successive motion must be
certified as provided in section 2244 by a panel
of the appropriate court of appeals to contain—
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by
the Supreme Court, that was previously
unavailable.
Absent certification from the United States Court of
Appeals, this Court lacks authority under § 2255 to
grant movant's requested [*3] relief. As a result,
the motion shall be denied.
Accordingly,
IT IS HEREBY ORDERED that movant's motion
under 28 U.S.C. § 2255 to vacate, set aside, or
correct sentence is DENIED and DISMISSED as
SUCCESSIVE. [Doc. 1]
An Order of Dismissal will accompany this
Memorandum and Order.
/s/ Charles A. Shaw

End of Document

